PROOF OF SERVICE BY MAIL

I, Albert M. Kun, do state as follows:
On August

, 2021,1 served a true copy of the attached

MOTION FOR LEAVE TO PROCEED/FILE IN FORMA PAUPERIS THE
PETITION FOR WRIT OF CERTIORARI and AFFIDAVIT
in San Francisco, California, with postage fully prepaid, by first-class mail
on:
James Chang
Assistant General Counsel
State Bar of California
180 Howard Street
San Francisco, CA 94105-1639

Cara M. Porter
Deputy Attorney General, State of California
455 Golden Gate Avenue, Suite 11000
San Francisco, CA 94102

I declare under penalty of perjury under the laws of the State of California that
the foregoing is true and correct.

Executed on August

(Q

, 2021 at San Francisco, California

Albert Miklos Kun

